Report No. DODIG-2012-076                   April 19, 2012




    Army Contracting Command - Rock Island Contracts
   Awarded Without Competition Were Properly Justified
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ACC-RI                        Army Contracting Command – Rock Island
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System - Next Generation
J&A                           Justification and Approval
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE 

                                  4800 MARK CENTER DRIVE, 

                               ALEXANDRIA, VIRGINIA 22350-1500 





                                                                            April 19, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Anny Contracting Command - Rock Island Contracts A warded Without
        Competition Were Properly Justified (Report No. DODIG-20l2-076)

We are providing this report for your information and use, This report is the third in a
series of audit reports on DoD contracts awarded without competition. Army Contracting
Command - Rock Island contracting personnel adequately documented, obtained
appropriate approvals, and justified the use of other than full and open competition on the
justification and approval for other than full and open competition for all 26 contracts
reviewed. In addition, they generally documented compliance with additional Federal
requirements to support those sole source determinations. No written response to this
report was required, and none was received, Therefore, we are publishing this report in
final form.

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9077 (DSN 664-9077).


                                            ()~~~'~li~!f.\v~c~,'
                                                              v~c2('L;'(L/,£),e .~
                                            LAssiMant Inspector General
                                             Acquisition and Contract Management
Report No. DODIG-2012-076 (Project No. D2011-D000CG-0228.004)                         April 19, 2012 




               Results in Brief: Army Contracting Command
               – Rock Island Contracts Awarded Without
               Competition Were Properly Justified
                                                          requirements to support those sole source
What We Did                                               determinations.
Our objective was to determine whether DoD
noncompetitive contract awards were properly                 Specifically, ACC-RI contracting personnel:
justified as sole source at the Army Contracting             •	 generally included all data elements in
Command – Rock Island (ACC-RI), Rock                            the J&As;
Island, Illinois. This report is the third in a              •	 generally applied the cited authority
series of reports on DoD contracts awarded                      permitting other than full and open
without competition. We reviewed                                competition in the J&As;
26 noncompetitive contracts with a combined                  •	 obtained approval from the proper
obligated value of $542.9 million that ACC-RI                   authorities to issue noncompetitive
contracting personnel awarded in FY 2009 and                    contract awards within the required time
FY 2010.                                                        frames;
                                                             •	 documented compliance with FAR
Full and open competition is the preferred                      Part 10, “Market Research,” in the
method for Federal agencies to award contracts.                 contract file; and
Section 2304, title 10, United States Code, and              •	 did not include one or both of the
Section 253, title 41, United States Code,                      statements required by FAR 5.207,
require contracting officers to promote and                     “Preparation and Transmittal of
provide for full and open competition when                      Synopses,” in the synopsis for 17 of the
soliciting offers and awarding contracts.                       26 noncompetitive contracts.
Contracting officers may use procedures other
than full and open competition under certain              Management Comments
circumstances. However, each contract                     No written response to this report was required,
awarded without providing for full and open               and none was received. Therefore, we are
competition must conform to policies and                  publishing this report in final form.
procedures in Federal Acquisition Regulation
(FAR) Subpart 6.3, “Other Than Full and Open
Competition.”

What We Found
ACC-RI contracting personnel adequately
documented, obtained appropriate approvals,
and justified the use of other than full and open
competition on the justification and approval
(J&A) for other than full and open competition
for all 26 contracts reviewed. In addition,
ACC-RI contracting personnel generally
documented compliance with additional Federal


                                                    i
	
Table of Contents

Introduction	                                                                  1


      Objective                                                                1

      Background                                                               1

      Army Contracting Command – Rock Island                                   1

      Contracts Reviewed at ACC-RI                                             2

      Review of Internal Controls at ACC-RI                                    2


ACC-RI Contracts Were Properly Justified As Sole Source	                       3


      ACC-RI Adequately Supported Sole-Source Determinations                   3

      ACC-RI Personnel Generally Complied with Additional Regulations that
	
       Supported Sole-Source Determinations                                     7

      Summary                                                                  10 


Appendices

      A. 	Scope and Methodology                                                11 

             Universe and Sample Information                                   11 

             Review of Documentation and Interviews                            12 

             Use of Computer-Processed Data                                    12 

             Use of Technical Assistance                                       13 

             Prior Coverage                                                    13 

      B. 	Federal Acquisition Regulation Criteria                              15 

             FAR Subpart 6.3, “Other than Full and Open Competition”           15 

             FAR Subpart 5.2, “Synopses of Proposed Contract Actions”          16 

             FAR Part 10, “Market Research”                                    17 

      C. Noncompetitive Contracts Reviewed 	                                   18 

      D. Adequate Justification and Approvals	                                 22 

      E. Market Research Conducted	                                            24 

Introduction
Objective
Our objective was to determine whether DoD noncompetitive contract awards were
properly justified as sole source at the Army Contracting Command – Rock Island (ACC-
RI), 1 Rock Island, Illinois. This report is the third in a series of reports on DoD contracts
awarded without competition. See Appendix A for the scope and methodology and prior
coverage related to the objectives.

Background
Full and open competition is the preferred method for Federal agencies to award
contracts. Section 2304, title 10, United States Code, and Section 253, title 41, United
States Code, require contracting officers to promote and provide for full and open
competition when soliciting offers and awarding contracts. According to the Government
Accountability Office, promoting competition in Federal contracting presents the
opportunity for significant cost savings and can help improve contractor performance,
prevent fraud, and promote accountability. Contracting officers may use procedures
other than full and open competition under certain circumstances. However, each
contract awarded without providing for full and open competition must conform to
policies and procedures in Federal Acquisition Regulation (FAR) Subpart 6.3, “Other
Than Full and Open Competition.”

FAR subpart 6.3 prescribes the policies and procedures for contracting without full and
open competition. FAR Part 10, “Market Research,” prescribes policies and procedures
for conducting market research to arrive at the most suitable approach for acquiring,
distributing, and supporting supplies and services. FAR Subpart 5.2, “Synopses of
Proposed Contract Actions,” establishes policy to ensure agencies make notices of
proposed contract actions available to the public. Appendix B provides additional
explanation on FAR subpart 6.3, FAR part 10, and FAR subpart 5.2 requirements.

Army Contracting Command – Rock Island
ACC-RI works to ensure the warfighting readiness of the Army by providing contracting
support for the acquisition of ammunition, theatre logistics support, and chemical
demilitarization. ACC-RI provides full support of the acquisition requirements for six
customers: the U.S. Army Sustainment Command, the Joint Munitions and Lethality Life
Cycle Management Command Rock Island, Program Executive Office Enterprise
Information Systems, U.S. Central Command Contracting Command, the Surface
Deployment and Distribution Command, and the Office of the Program Manager Saudi
Arabian National Guard.



1
 This audit specifically reviewed contracts issued by the Joint Munitions and Lethality Life Cycle
Management Command Rock Island.


                                                     1
	
Contracts Reviewed at ACC-RI
Our Federal Procurement Data System – Next Generation (FPDS-NG) queries identified
that ACC-RI contracting personnel awarded 188 noncompetitive C and D type contracts 2
with an obligated value of $2.3 billion during FY 2009 and FY 2010. Of the 188 C and D
type noncompetitive contracts 3 awarded by ACC-RI contracting, we focused our review
on the 36 noncompetitive C and D type contracts awarded by the Joint Munitions and
Lethality Life Cycle Management Command Rock Island. We selected all 36 C and D
type, noncompetitively awarded contracts, with an obligated value of $584 million to
review. We later excluded ten contracts from our sample because they were outside the
scope of our audit:
    • three contracts had J&As that were classified,
    • two contracts were 8(a) set asides,
    • two contracts were competed,
    • two contracts had been transferred to the installation for contract administration
        and were unavailable for review, and
	
    • one contract was not awarded in FY 2009 or FY 2010. 


In total, we reviewed 26 contracts with a value of about $2.8 billion. 4 See Appendix C
for specific noncompetitive contract awards reviewed.

Review of Internal Controls at ACC-RI
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. ACC-RI’s internal controls
over its processes for issuing the noncompetitive contract awards we reviewed were
effective as they applied to the audit objectives.




2
  Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII Number,” defines C type
contracts as “Contracts of all types except indefinite delivery contracts, sales contracts, and contracts
placed with or through other Government departments or agencies or against contracts placed by such
departments or agencies outside the DoD,” and D type contracts as “Indefinite delivery contracts.”
3
  Data obtained in FPDS-NG is reported on an individual action basis (that is, single modification). As a
result, we combined all actions identified for a given contract to determine the number of contracts awarded
during FY 2009 and FY 2010 and their respective obligated amounts.
4
  The obligated value for the 26 contracts was $542.9 million.



                                                     2
	
ACC-RI Contract Awards Were Properly
Justified As Sole Source
ACC-RI contracting personnel properly justified the use of other than full and open
competition on the justification and approval (J&A) for other than full and open
competition for all 26 contracts, with an obligated value of $542.9 million. ACC-RI
contracting personnel generally complied with FAR 6.303-2, “Content,” requirements in
the J&As, generally applied the authority cited, and obtained approval from the proper
personnel before contract award for all 26 J&As. Further, ACC-RI contracting personnel
generally documented compliance with FAR Part 10, “Market Research,” and
FAR Subpart 5.2, “Synopses of Proposed Contract Actions” in the contract files to
support sole-source determinations.

ACC-RI Adequately Supported Sole-Source
Determinations
ACC-RI contracting personnel adequately supported the use of other than full and open
competition on the J&As for all 26 contracts. FAR 6.302, “Circumstances Permitting
Other Than Full and Open Competition,” lists the seven exceptions permitting
contracting without full and open competition. A contracting officer must not begin
negotiations for or award a sole-source contract without providing full and open
competition unless the contracting officer justifies the use of such action in writing,
certifies the accuracy and completeness of the justification, and obtains approval of the
justification. ACC-RI contracting personnel did not always document all the required
elements of FAR 6.303-2 in the J&As; however, personnel provided enough information
in the J&As to justify permitting other than full and open competition. ACC-RI
contracting personnel obtained approval from the proper official for each of the 26 J&As
and obtained approval within the required time frames.

ACC-RI Generally Complied With J&A Content Requirements
ACC-RI contracting personnel generally documented compliance with content
requirements in the 26 J&As. ACC-RI contracting personnel included all the required
elements as outlined in FAR 6.303-2 in the J&As for 20 of the 26 J&As. FAR 6.303-2
identifies the minimum information that must be included in a J&A. FAR 6.303-2
requires information such as a description of the supplies or services required to meet the
agency’s needs, the estimated value, and the statutory authority permitting other than full
and open competition. Although ACC-RI contracting personnel did not document all the
required elements of FAR 6.303-2 in six of the J&As, ACC-RI contracting personnel
provided enough information in the J&As to justify executing the contracts without full
and open competition. See Table 1 for the specific contracts that did not meet all J&A
content requirements and whether additional information was in the contract file to
address the missing information.




                                             3
	
              Table 1. J&As Missing FAR Content Requirements
                                  J&A Addresses        Additional Information in
                               Requirements of FAR        the Contract File to
           Contract          Subpart 5.2, “Publicizing Address the Missing J&A
                             Contract Actions,” or the   Content Requirement
                                     Exception
     W52P1J-10-C-0030                         No                             Yes
     W52P1J-10-C-0033                         No                             Yes
     W52P1J-10-C-0018                         No                             Yes
     W52P1J-09-C-0024                         No                              No
     W52P1J-10-C-0022                         No                             Yes
     W52P1J-10-C-0002                         No                             Yes


ACC-RI contracting personnel did not meet all of the content requirements for six
contracts due to minor documentation omissions. For the six contracts, ACC-RI
contracting personnel did not cite, as required by FAR 6.303-2(b)(6), whether a notice
was or will be publicized as required by FAR subpart 5.2, and if it will not be publicized,
which exception under FAR 5.202, “Exceptions,” applies. For five of the six contracts,
ACC-RI contracting personnel provided additional information in the contract file to
address the missing J&A content requirement. The ACC-RI contracting officer included
a memorandum in the contracting file citing the exception used under FAR 5.202 for two
of the six contracts. ACC-RI contracting personnel provided enough evidence in the
contract files for two contracts to show they were publicized, as required by FAR
subpart 5.2. The J&A for contract W52P1J-10-C-0018 did not cite an exception from
FAR 5.202; however, the J&A cited FAR 6.302-2 as the reason for awarding the contract
using other than full and open competition. FAR 5.202(a)(2) is the exception that permits
a proposed contract action under the authority of FAR 6.302-2 to be awarded without
issuing a synopsis. We consider this to be a documentation omission because the support
was in the contract file that the five contract actions were publicized as required by FAR
subpart 5.2 or that an exception under FAR 5.202 applied.

ACC-RI contracting personnel did not include any evidence for the remaining J&A in the
contract file indicating whether a notice was publicized or that an exception was used.
The contracting officer stated that the procurement for contract W52P1J-09-C-0024 was
not synopsized because no competitor or subcontracting possibilities were available.
Although the contract should have been publicized as required by FAR subpart 5.2 and
noted in the J&A, contracting personnel provided enough information in the J&A to
justify executing the contract without full and open competition. Each of these six
instances resulted from documentation omissions and did not result in inadequate
noncompetitive awards; therefore, we do not consider these problems to be systemic and



                                            4
	
are not making a recommendation to address these problems. Also, see Appendix D for
additional information on justifications and J&A content and approvals.

ACC-RI Personnel Generally Applied the Sole-Source Authority
Cited
ACC-RI contracting personnel generally applied the appropriate authority permitting
other than full and open competition in 23 of the 26 J&As. ACC-RI contracting
personnel awarded:
    •	 21 contracts citing the authority of FAR 6.302-1, “Only One Responsible Source
        and No Other Supplies or Services Will Satisfy Agency Requirements,”
    •	 4 contracts citing the authority of FAR 6.302-2, “Unusual and Compelling 

        Urgency,” and
	
    •	 1 contract citing the authority of FAR 6.302-3, “Industrial mobilization;
	
        engineering, developmental, or research capability; or expert services.”
	

For the 21 contracts that cited the authority of FAR 6.302-1, ACC-RI contracting
personnel provided adequate rationale in the J&A as to why only one contractor could
provide the required product or service and why only that product or service could meet
the Government’s requirements. However, for 3 of these 21 contracts, ACC-RI
contracting personnel should have cited the authority of FAR 6.302-2, as the J&A
explained the immediate need for the continuation of services, which only a specific
contractor could provide without a disruption in service. In addition, ACC-RI listed the
exception in FAR 5.202(a)(2), which states a contracting officer does not need to submit
a synopsis for contract actions issued under the conditions described at FAR 6.302-2 as
the reason for not issuing a synopsis for all three of these contracts. ACC-RI personnel
cited FAR 6.302-1 when they should have cited the FAR 6.302-2 authority but, based on
information included in the J&A and contract file, we still consider the sole-source
contract award to be justified, as only one contractor could fulfill the immediate need for
continuation of services.

For the four contracts that cited the authority of FAR 6.302-2, ACC-RI contracting
personnel provided adequate rationale in the J&A that supported the unusual and
compelling urgency of the acquisition. ACC-RI contracting personnel explained the need
for immediate operations and engineering support because of an unanticipated expansion
of support to Afghanistan in the J&A for contract W52P1J-10-C-0018. The rapid
expansion was not predicted and if the contractor was not in place immediately, a risk of
mission failure could occur, which poses a threat to the safety of soldiers and civilians.
FAR 6.302-2(c) and (d) impose further limitations on contract awards citing this
authority. For the four contracts, ACC-RI contracting personnel provided adequate
rationale in the J&A that supported why only one contractor and one product or service
could have met the Government’s requirements. Contracting personnel are required by
FAR 6.302-2(c) to request offers from as many potential sources as practicable. For
contract W52P1J-10-C-0018, the contracting officer explained in the J&A that the
contractor had extensive knowledge of the area of responsibility and was already in place.
Awarding it to another contractor would cause a duplication of effort and costs as well as



                                             5
	
delays. Contracting personnel are required by FAR 6.302-2(d) to limit the period of
performance of the contract. ACC-RI contracting personnel awarded contract W52P1J-
10-C-0018 for 6 months only.

ACC-RI contracting personnel awarded one contract that cited the authority of
FAR 6.302-3. FAR 6.302-3(a) allows other than full and open competition when it is
necessary to maintain a facility, producer, manufacturer, or other supplier available for
furnishing supplies or services in case of a national emergency or to achieve industrial
mobilization. FAR 6.302-3(b) also states the authority may be necessary to keep vital
facilities or supplies in business or make them available in the event of a national
emergency. For contract W52P1J-09-D-0003, ACC-RI personnel provided adequate
rationale in the J&A to justify the noncompetitive contract award based on the authority
at FAR 6.302-3. For example, ACC-RI contracting personnel explained in the J&A for
contract W52P1J-09-D-0003 the need to restrict the production and supply of explosive
ammunition components, which are essential and must be available in case of a national
emergency. The specialized manufacturing processes and skill sets associated in
producing the explosives are difficult and costly to reestablish, therefore, it was necessary
to restrict the procurement to ensure prompt response in case of a national emergency.

ACC-RI Personnel Obtained Approval From the Proper Officials
for Sole-Source Contract Awards
ACC-RI contracting personnel obtained approval from the appropriate official on all
26 J&As. FAR 6.304, “Approval of the Justification,” defines the proper approval
authority at various thresholds for the estimated dollar value of the contract including
options. For FY 2009 and FY 2010, the FAR authorized the procuring contracting officer
to provide the final approval for proposed contract actions up to $550,000 and for the
competition advocate of the procuring activity to provide the final approval for proposed
contract actions of more than $550,000 but not exceeding $11.5 million. The contracting
officer appropriately approved seven J&As with an estimated value of $550,000 or less.
The competition advocate appropriately approved seven J&As valued at more than
$550,000 but not exceeding $11.5 million. The Principal Assistant Responsible for
Contracting or the Chief Counsel appropriately approved nine J&As valued at more than
$11.5 million but not exceeding $78.5 million. The Assistant Secretary of the Army
(Acquisition, Technology, and Logistics) approved the remaining three J&As valued at
more than $78.5 million, as required by FAR 6.304.

For 25 of the 26 J&As, the designated official approved the J&A before contract award as
required by FAR 6.303, “Justifications.” However, FAR 6.303 allows justifications for
contracts awarded under FAR 6.302-2 to be prepared and approved within a reasonable
time after contract award when preparation and approval prior to award would
unreasonably delay the acquisitions. ACC-RI contracting personnel awarded contract
W52P1J-10-D0083 under the authority of FAR 6.302-2 and 5 days later the appropriate
official approved the J&A. Although the ACC-RI contracting officer awarded contract
W52P1J-10-D-0083 before the designated official approved the J&A, he was in
compliance with FAR 6.303. See Appendix D for additional information on justifications
and J&A content and approvals.


                                             6
	
ACC-RI needed to issue two new J&As on 2 of the 26 existing contracts to comply with
Army Federal Acquisition Regulation Supplement, 5106.304, “Approval of the
Justification.” Army Federal Acquisition Regulation Supplement, 5106.304(a), requires
a new J&A to be obtained from the appropriate approval authority prior to award if the
new dollar value exceeds the original J&A approval authority. In each case, ACC-RI
contracting personnel issued a modification to the contract that required a higher approval
authority than was required for the original J&A. ACC-RI contracting personnel
obtained approval from the appropriate official on both J&As. For one of the J&As, the
designated official approved the J&A before ACC-RI contracting personnel issued the
modification; however, the second J&A was not approved by the designated official until
after ACC-RI contracting personnel issued the modification. We do not consider this
problem to be systemic and are not making a recommendation.

ACC-RI Personnel Generally Complied With Additional
Regulations That Supported Sole-Source
Determinations
ACC-RI personnel documented the market research efforts and included adequate
documentation in the contract files to support FAR part 10 and FAR subpart 5.2
requirements. ACC-RI contracting personnel provided sufficient information in the
contract files to determine the specific steps ACC-RI personnel took to conduct market
research and the results. In addition, ACC-RI contracting personnel generally included
adequate documentation to support that the proposed contract actions were properly
synopsized in the Governmentwide Point of Entry, which is accessed on the Internet at
https://www.fedbizopps.gov, with the exception of including the required language
outlined in FAR 5.207(c)(14) and (15) in the synopses. As a result, ACC-RI contracting
personnel generally complied with FAR part 10 and FAR subpart 5.2 requirements to
support ACC-RI sole-source determinations.

ACC-RI Appropriately Documented the Market Research Efforts
and the Results
ACC-RI personnel appropriately documented the market research conducted or provided
adequate justification in the contract file when market research was not conducted for all
26 contracts reviewed. Contracting personnel included documentation to show
compliance with FAR part 10 in the contract file 5 to support all 26 sole-source
determinations. FAR part 10 states that agencies should document the results of market
research in a manner appropriate to the size and complexity of the acquisition.
FAR 10.002, “Procedures,” states the extent of market research will vary, depending on
such factors as urgency, estimated dollar value, complexity, and past experience.
ACC-RI contracting personnel performed market research techniques identified in



5
 We considered documentation sufficient to meet FAR part 10 requirements if the specific steps taken to
conduct market research and the subsequent results were documented or adequate rationale for not
conducting market research was documented.


                                                    7
	
FAR part 10 for 13 of the 26 contract awards that had adequate support documented in
the contract file. For example, ACC-RI contracting personnel conducted internet
inquiries, contacted knowledgeable individuals in industry, or reviewed past
procurements for the 13 noncompetitive awards that had award values ranging from
$150,000 to $2 billion. ACC-RI contracting personnel documented the techniques
performed and the subsequent results in each of the 13 contract files.

ACC-RI contracting personnel did not conduct market research in 13 of the 26 instances;
however, contracting personnel provided adequate documentation in each of the
13 contract files to support those determinations. For example, ACC-RI contracting
personnel did not conduct market research for contract W52P1J-09-C-0023 because the
Uzbekistani Ministry of Defense and the U.S. Secretary of Defense signed a Transient
Agreement establishing business arrangements and procedures for land transit. The
Republics of Uzbekistan and Korea do not allow their citizens to enter into Afghanistan.
A U.S. company is the only contractor approved by the agreement to legally enter into
Afghanistan from Uzbekistan. Therefore, the contractor was the only company available
to provide services for this contract action. See Appendix E for additional information on
the market research ACC-RI personnel conducted.

ACC-RI Personnel Complied With FAR 5.207 for Most of the
18 Noncompetitive Contracts
ACC-RI contracting personnel complied with requirements when synopsizing 17 of the
18 proposed contract actions that required a presolicitation notice, with the exception of
including the required language outlined in FAR 5.207(c)(14) and (15). FAR
Subpart 5.2, “Synopses of Proposed Contract Actions,” requires contracting officers to
transmit a notice to the Governmentwide Point of Entry for each proposed contract action
expected to exceed $25,000, except those covered by an exception in FAR 5.202,
“Exceptions.” The primary purposes of the notice are to improve small business access
to acquisition information and enhance competition by identifying contracting and
subcontracting opportunities.

In accordance with FAR 5.202(a)(2) or (10), ACC-RI contracting personnel awarded 8 of
the 26 contracts reviewed without issuing a synopsis. Contracting officers are exempt
from issuing a synopsis under FAR 5.202(a)(2) when the proposed contract action is
made under the conditions described in FAR 6.302-2, “Unusual and Compelling
Urgency,” and the Government would be seriously injured if the agency complies with
the publicizing and response times specified in the FAR. In addition, contracting officers
are exempt from issuing a synopsis under FAR 5.202(a)(10) when the proposed contract
action is made under the conditions described in FAR 6.302-3, “Industrial Mobilization;
Engineering, Developmental, or Research Capability; or Expert Services.”

ACC-RI personnel did not include one or both of the statements required by FAR 5.207,
“Preparation and Transmittal of Synopses,” in the 17 synopses available for our review.




                                            8
	
FAR 5.207(c)(14), 6 requires the synopsis of noncompetitive contract actions to identify
the intended source and a statement of the reason justifying the lack of competition.
FAR 5.207(c)(15) requires the synopsis for all noncompetitive contract actions to include
a statement that all responsible sources may submit a capability statement, bid, proposal,
or quotation, “which shall be considered by the agency.” By not including this required
statement in the synopsis, ACC-RI contracting personnel did not encourage potential
sources to answer the synopsis for 17 of the 18 contract actions that were required to be
synopsized. The ACC-RI contracting personnel did not synopsize one contract, W52P1J-
09-C-0024, or document one of the exceptions listed in FAR 5.202 for why they did not
synopsize the contract. We are not making a recommendation on this issue because
ACC-RI contracting personnel included support within each of the 18 contract files to
show that competition could not be reasonably anticipated. See Table 2 for the
17 noncompetitive contracts that did not include the statement or statements required by
FAR 5.207(c)(14) and/or FAR 5.207(c)(15).

Table 2. Contracts Not Compliant With FAR 5.207(c)(14) and/or FAR 5.207(c)(15)
      Contract          Synopsis did not include the    Synopsis did not include the
                          statement required by           statement required by
                             FAR 5.207(c)(14)                FAR 5.207(c)(15)
W52P1J-10-D-0023                              √
W52P1J-10-C-5002                                                                        √
W52P1J-10-C-0008                                                                        √
W52P1J-10-C-0048                                                                        √
W52P1J-09-C-0023                              √
W52P1J-10-C-5000                              √                                         √
W52P1J-10-C-0054                                                                        √
W52P1J-10-C-0030                              √                                         √
W52P1J-10-C-5035                              √                                         √
W52P1J-10-D-0048                              √                                         √
W52P1J-10-C-0016                                                                        √
W52P1J-10-C-0033                                                                        √
W52P1J-10-C-0027                                                                        √
W52P1J-09-D-0027                              √                                         √
W52P1J-10-C-0007                                                                        √
W52P1J-10-C-0058                              √                                         √
W52P1J-10-C-5036                              √                                         √



6
  Effective May 31, 2011, the requirements in FAR 5.207(c)(14), FAR 5.207(c)(15)(i), and
FAR 5.207(c)(15)(ii) were moved to FAR 5.207(c)(15), FAR 5.207(c)(16)(i), and FAR 5.207(c)(16)(ii),
respectively.


                                                  9
	
Summary
ACC-RI contracting personnel adequately justified the use of other than full and open
competition on the J&As for all 26 contracts reviewed. ACC-RI contracting personnel
generally complied with FAR 6.303-2 requirements in the J&As, generally applied the
authority cited, and obtained approval from the proper personnel before contract award
for all 26 J&As. Further, ACC-RI contracting personnel generally documented
compliance with FAR part 10 and FAR subpart 5.2 in the contract files to support sole-
source determinations. We are not making recommendations because we do not consider
the problems identified to be material.




                                          10
	
Appendix A. Scope and Methodology
We conducted this performance audit from August 2011 through April 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Our scope was limited to noncompetitive contract awards during FY 2009 and FY 2010
to determine whether DoD noncompetitive contract awards were properly and adequately
justified as sole source. We excluded contracts that were awarded for national security
purposes, foreign military sales, classified contracts, or contracts that were improperly
coded in the FPDS-NG as noncompetitive.

In July 2011, DoD Office of Inspector General management decided the audit teams
would issue site reports under individual subprojects from the initial project. In October
2011, we reannounced the revised audit approach of issuing separate audit reports for
each audit site as well as the revised audit objective to determine whether DoD
noncompetitive contract awards were properly justified as sole source.

Universe and Sample Information
We used the FPDS-NG to identify noncompetitive contract actions issued by the Military
Services and DoD agencies during FY 2009 and FY 2010. The queries were limited to
actions issued on contracts that were awarded during FY 2009 and FY 2010 and coded as
a “noncompetitive delivery order” or “not competed” in FPDS-NG. The queries also
excluded contract actions that received more than one offer as identified in FPDS-NG.
We then selected the four DoD Components with the highest dollar value of awards,
specifically the Army, Navy, Air Force, and the Defense Logistics Agency to identify
specific audit locations.

We focused our site selection on three sites for the Department of the Army that awarded
20 or more C and D type noncompetitive contracts and obligated approximately
$200 million or more during FY 2009 and FY 2010. Our site selection excluded sites
that were visited during the recent Government Accountability Office and Army Audit
Agency reviews on noncompetitive contract awards. In addition, we reviewed reports
issued by the Department of Defense Office of Inspector General, Acquisition and
Contract Management Directorate, from October 2008 to April 2011 that covered
acquisition and contracting issues and excluded sites that have been visited on numerous
occasions.

The initial data obtained from FPDS-NG resulted in a universe of 188 noncompetitive C
and D type contracts and we focused our review on the 36 noncompetitive C and D type
contracts awarded by ACC-RI Joint Munitions and Lethality Life Cycle Management
Command. We requested all 36 contracts to review during the site visit to ACC-RI.

                                            11
	
However, for the 36 contracts requested, we did not review contracts awarded for
national security purposes, foreign military sales, classified contracts, or contracts that
were improperly coded in the FPDS-NG as noncompetitive. In addition, we did not
review contracts that were not truly noncompetitive such as contracts that were
competitive one bids or those contracts set aside to develop small businesses.

Three contracts were excluded from our sample because they contained a classified
justification and approval and two contracts were transferred to the installation for
contract administration and were unavailable for review. In addition, two contracts were
excluded from our sample because they were miscoded as noncompetitive in FPDS-NG
and were competed before award, two contracts were excluded because they were
miscoded in FPDS-NG and should have been coded as a Small Business Innovative
Research Program, and one contract file was a contract continuation of a contract
awarded in FY 2006 that was outside of the audit scope. Based on these exclusions, we
reviewed 26 of the 36 contracts requested. See Appendix C for additional details on the
noncompetitive contracts we reviewed.

Review of Documentation and Interviews
We evaluated documentation against applicable criteria including:
  •	 FAR Part 5, “Publicizing Contract Actions,”
  •	 FAR Subpart 6.3, “Other Than Full and Open Competition,”
  •	 FAR Part 10, “Market Research,”
  •	 Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII
	
      number,”
	
  •	 Army Federal Acquisition Regulation Supplement Part 5110, “Market Research,”
      and
  •	 Army Federal Acquisition Regulation Supplement 5106.304, “Approval of the
      Justification.”

We interviewed contracting personnel at ACC-RI to discuss noncompetitive contract
awards and to obtain information regarding the noncompetitive contract files identified in
our sample, specifically about the J&A and market research. We also interviewed the
competition advocate at ACC-RI to gain an understanding of the competition advocate’s
responsibilities and role in noncompetitive contract awards.

Use of Computer-Processed Data
We relied on computer-processed data from the FPDS-NG to establish the initial universe
for this audit by identifying noncompetitive contract actions issued by the Military
Services and DoD agencies. We also used the data from the FPDS-NG to help determine
the contracting organizations to visit and to perform the nonstatistical sample selection.
In addition, we used the Electronic Document Access database to obtain contract
documentation, such as the contract and modifications to the contract before our site visit
to the ACC-RI. To assess the accuracy and appropriateness of the computer-processed
data, we verified the FPDS-NG and Electronic Document Access data against official
records at the contracting activity. We determined that data obtained through the

                                              12
	
Electronic Document Access database were sufficiently reliable to accomplish our audit
objective when compared with contract records. We determined that there were four
miscodes within the data reviewed from FPDS-NG when compared with contract
records; however, we used the FPDS-NG only to identify the universe, to help determine
the contracting organizations to visit, and to identify our nonstatistical sample.

Use of Technical Assistance
We held discussions with personnel from the Department of Defense Office of Inspector
General’s Quantitative Methods and Analysis Division. We determined that we would
use FPDS-NG data to select a nonstatistical sample of contracting activities and then use
FPDS-NG data to select a nonstatistical sample of noncompetitive contracts to review.
During our site visit, we worked with ACC-RI contracting personnel to verify that the
selected contracts met the scope limitations of our review and to identify additional
contracts that did not meet the selection criteria. Our nonstatistical sample was limited to
specific contracts, and our results should not be projected across other ACC-RI-issued or
Army-issued contracts.

Prior Coverage
During the last 5 years, the Government Accountability Office, DoD IG, and the
Department of the Army have issued five reports discussing noncompetitive contract
awards. Unrestricted DoD Office of Inspector General reports can be accessed over the
Internet at http://www.dodig.mil. Unrestricted Government Accountability Office reports
can be accessed over the Internet at http://www.gao.gov. Unrestricted Army reports can
be accessed from .mil and .gov domains over the Internet at https://www.aaa.army.mil/.

Government Accountability Office
Government Accountability Office Report No. GAO-12-263, “Improved Policies and
Tools Could Help Increase Competition on DOD’s National Security Exception
Procurements,” January 13, 2012

Government Accountability Office Report No. GAO-10-833, “Opportunities Exist to
Increase Competition and Assess Reasons When Only One Offer Is Received,”
July 26, 2010

DoD IG
DoD Office of Inspector General Report No. DODIG-2012-073, “Natick Contracting
Division’s Management of Noncompetitive Awards Was Generally Justified,” April 10,
2012

DoD Office of Inspector General Report No. DODIG-2012-042, “Naval Air Systems
Command Lakehurst Contracts Awarded Without Competition Were Properly Justified,”
January 20, 2012




                                            13
	
Army
Army Audit Agency Report No. A-2011-0002-ALC, “Extent of Competition in Army
Contracting,” October 12, 2010




                                      14
	
Appendix B. Federal Acquisition Regulation
Criteria
FAR Subpart 6.3, “Other Than Full and Open Competition”
FAR subpart 6.3 prescribes the policies and procedures for contracting without full and
open competition. Contracting without full and open competition is a violation of statue
such as Section 2304, title 10, United States Code, unless permitted by an exception
provided in FAR 6.302, “Circumstances Permitting Other Than Full and Open
Competition.” FAR 6.302 lists seven exceptions for contracting without full and open
competition:

   •	 FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
      Will Satisfy Agency Requirements,”
   •	 FAR 6.302-2, “Unusual and Compelling Urgency,”
   •	 FAR 6.302-3, “Industrial Mobilization; Engineering, Developmental, or Research
      Capability; or Expert Services,”
   •	 FAR 6.302-4, “International Agreement,”
   •	 FAR 6.302-5, “Authorized or Required by Statute,”
   •	 FAR 6.302-6, “National Security,” and
   •	 FAR 6.302-7, “Public Interest.”

A contracting officer must not begin negotiations for or award a noncompetitive contract
without providing full and open competition unless the contracting officer justifies the
use of such action in writing, certifies the accuracy and completeness of the justification,
and obtains approval of the justification. FAR 6.303-2, “Content,” requires each
justification to contain sufficient facts and rationale to justify the use of the authority
cited. At a minimum, each justification must contain the following.

   •	 The name of the agency and contracting activity and identification of the
	
      document as a “Justification for other than full and open competition.”
	
   •	 A description of the action being approved.
   •	 A description of the supplies or services required to meet the agency’s needs
      including the estimated value.
   •	 The statutory authority permitting other than full and open competition.
   •	 A demonstration that the contractor’s unique qualifications or the nature of the
      acquisition requires the use of the authority cited.
   •	 A description of the efforts made to ensure offers are submitted from as many
      sources as practicable.
   •	 The contracting officer’s determination that the cost to the Government will be
      fair and reasonable.
   •	 A description and the results of the market research conducted or, if market
      research was not conducted, a reason it was not conducted.
   •	 Any other facts supporting the use of other than full and open competition.

                                             15
	
    •	 A listing or sources that expressed written interest in the acquisition.
    •	 A statement of the actions the agency may take to overcome any barriers to
       competition before a subsequent acquisition.
    •	 The contracting officer’s certification that the justification is accurate and
	
       complete to the best of his or her knowledge and belief.
	

FAR 6.304, “Approval of the Justification,” identifies the person responsible for
approving the J&A based on the value of the proposed contract. * The contracting officer
approves the J&A for a proposed contract not exceeding $550,000. The competition
advocate approves the J&A for a proposed contract of more than $550,000 but not
exceeding $11.5 million. A general or flag officer if a member of the military, or a
civilian in a position above GS-15 under the general schedule approves the J&A for a
proposed contract more than $11.5 million but not exceeding $78.5 million. The senior
procurement executive of the agency approves the J&A for a proposed contract over
$78.5 million.

FAR Subpart 5.2, “Synopses of Proposed Contract Actions”
FAR 5.201, “General,” requires agencies to provide a synopsis of proposed contract
actions for the acquisition of supplies and services. The contracting officer must submit
the synopsis to the Governmentwide Point of Entry that can be accessed on the Internet at
https://www.fedbizopps.gov. FAR 5.203, “Publicizing and Response Time,” requires the
synopsis to be published for at least 15 days before the issuance of a solicitation or
proposed contract action; however, the contracting officer may establish a shorter period
of time for commercial items. Each synopsis submitted to the Governmentwide Point of
Entry must include certain data elements as applicable, such as the date of the synopsis,
the closing response date, a proposed solicitation number, a description, and the point of
contact or contracting officer. In addition, FAR 5.202, “Exceptions,” lists circumstances
when the contracting officer does not need to submit a synopsis. Examples of instances
when the contracting officer does not need to submit a synopsis include the following.
     •	 The proposed contract action is made under FAR 6.302-2, and the Government
        would be seriously injured if the agency complied with time periods specified by
        FAR 5.203.
     •	 The proposed contract action is made under FAR 6.302-3 or FAR 6.302-5 with
        regard to brand name commercial items authorized for resale.
     •	 The proposed contract action is made under FAR 6.302-3 with regard to the
        services of an expert to support the Government in a litigation or dispute.

Contracting officers are required by FAR 5.207, “Preparation and Transmittal of
Synopses,” to include statements in the synopses of noncompetitive contract actions
stating their intent to award a noncompetitive contract and notifying interested sources of
actions they can take if interested in the noncompetitive contract. FAR 5.207(c)(14)


*
 On October 1, 2010, the approval thresholds increased. Our review was limited to noncompetitive
contract awards during FY 2009 and FY 2010; therefore, we used the approval thresholds in place during
FY 2009 and FY 2010.

                                                  16
	
requires the synopsis of noncompetitive contract actions to identify the intended source
and a statement of the reason justifying the lack of competition. FAR 5.207(c)(15)(ii)
requires the synopsis of noncompetitive contract actions using FAR 6.302-1 as the
authority cited to include a statement that all responsible sources may submit a capability
statement, proposal, or quotation, which will be considered by the agency. For other
proposed contract actions made under FAR 6.302, FAR 5.207(c)(15)(i) requires the
synopsis to include a statement that all responsible sources may submit a bid, proposal, or
quotation, which shall be considered by the agency.

FAR Part 10, “Market Research”
FAR part 10 prescribes policies and procedures for conducting market research to arrive
at the most suitable approach for acquiring, distributing, and supporting supplies and
services. Agencies are required to conduct market research appropriate to the
circumstance before soliciting offers for acquisitions with an estimated value over the
simplified acquisition threshold. Agencies are required to use the results of market
research to determine if there are appropriate sources or commercial items capable of
satisfying the agency’s requirements. The extent of market research the agencies
conducts varies depending on factors such as urgency, estimated dollar value,
complexity, and past experience. The contracting officer may use market research
conducted within 18 months before the award of any task or delivery order if the
information is still current, accurate, and relevant. Agencies use market research
techniques, such as contacting knowledgeable individuals in Government and industry,
reviewing results of recent market research, publishing formal requests for information,
querying database, participating in on-line communication, obtaining source lists of
similar items, and reviewing available product literature. Agencies should document the
results of market research in a manner appropriate to the size and complexity of the
acquisition.




                                            17
	
           Appendix C. Noncompetitive Contracts Reviewed
                             Noncompetitive Contracts Awarded by ACC - Rock Island From FY 2009-FY 2010
                                    Product
                                                                                                                 Contract
          Contract Number             or                        Description                     Award Date                  Authority Cited   Contract Value1
                                                                                                                  Type
                                    Service
                                                                                                                  FFP &
   1      W52P1J-10-D-0023           Service         Rapid Reaction Support Services             11/24/2009                  FAR 6.302-1        $3,248,354
                                                                                                                   IDIQ
                                                      Construction of a handicapped
   2      W52P1J-10-C-5002           Service        accessible restroom and design and               6/18/2010     FFP       FAR 6.302-1         $396,542
                                                     construction of a janitor’s closet
                                                   Procurement of cartridges with a 90-
   3      W52P1J-10-C-0008           Product                                                         3/3/2010      FFP       FAR 6.302-1         $114,472
                                                         degree cut-away display
   4      W52P1J-09-C-0002           Service              Dining facilities services             11/06/2008        FFP       FAR 6.302-1        $17,136,000
                                                      Rapid Response Solutions to the
   5      W52P1J-10-C-0048           Service                                                         9/24/2010    T&M        FAR 6.302-1       $78,400,000
                                                      Warfighter Information Systems
                                                                                                                  FFP &
   6      W52P1J-09-C-0005           Service            Logistical support functions             12/29/2008                  FAR 6.302-2        $5,350,531
                                                                                                                  CPFF
   7      W52P1J-09-C-0023           Service                Movement of cargo                        4/27/2009     FFP       FAR 6.302-1         $158,884
                                                  Operation and Maintenance Service of
   8      W52P1J-10-C-5000           Service                                                         1/12/2010     Cost      FAR 6.302-1         $551,412
                                                     Groundwater Recovery System
Acronyms and footnotes used throughout the Appendix C are defined on the final page of Appendix C.




                                                                                       18
	
           Appendix C. Noncompetitive Contracts Reviewed (cont’d)
                        Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                    Product
                                                                                                                 Contract
          Contract Number             or                        Description                     Award Date                  Authority Cited   Contract Value
                                                                                                                  Type
                                    Service
                                                      Global Command Terrestrial
   9      W52P1J-10-C-0054           Service                                                         9/24/2010    T&M        FAR 6.302-1       $34,100,000
                                                            Communications
                                                  Sampling and analysis of Department of
  10      W52P1J-10-C-0030           Service          Transportation containers for                  4/25/2010    CPFF       FAR 6.302-1         $198,927
                                                         impurities/contaminants
  11      W52P1J-10-C-5035           Service            Environmental Investigation                  7/27/2010     FFP       FAR 6.302-1         $324,381
                                                                                                                  FFP &
  12      W52P1J-10-D-0048           Service           Line Haul Services of Freights                4/2/2010                FAR 6.302-1       $24,500,000
                                                                                                                   IDIQ
                                                    Site maintenance, technical support
                                                    services, training services, training
  13      W52P1J-10-C-0016           Service                                                         1/29/2010     FFP       FAR 6.302-1        $1,750,000
                                                  materials, spare parts, and management
                                                          of spare parts inventory
                                                     Maintenance, repair, and training
  14      W52P1J-10-C-0033           Service       activities for the Iraqi Army vehicles            5/26/2010    CPFF       FAR 6.302-1       $25,000,000
                                                               and equipment
                                                   Planning and Logistics Engineering
  15      W52P1J-10-C-0018           Service          Support for Operation Enduring                 2/24/2010    T&M        FAR 6.302-2         $381,030
                                                          Freedom in Afghanistan.
  16      W52P1J-09-C-0024           Product           M118 LR Alternate Propellant                  6/5/2009      FFP       FAR 6.302-1         $130,439
Acronyms and footnotes used throughout the Appendix C are defined on the final page of Appendix C.




                                                                                        19
	
           Appendix C. Noncompetitive Contracts Reviewed (cont’d)
                              Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                    Product
                                                                                                                 Contract
          Contract Number             or                        Description                     Award Date                    Authority Cited   Contract Value
                                                                                                                  Type
                                    Service
                                                  Production and supply of bulk research
  17      W52P1J-09-D-0003           Product       development explosive and high-melt               12/8/2008     FFP         FAR 6.302-3       $650,000,000
                                                                explosive
  18      W52P1J-10-C-0022           Service        Dining Facilities services in Kuwait             5/07/2010     FFP         FAR 6.302-1        $2,783,000
                                                  High-visibility IT security solution that
  19      W52P1J-10-C-0027           Service       is urgently needed in the Afghanistan             4/6/2010      FFP         FAR 6.302-1       $34,000,000
                                                                   Theater
                                                        Continued urgent and critical
                                                                                                                  FFP &
  20      W52P1J-10-D-0083           Service        intelligence and intelligence-related            9/24/2010                 FAR 6.302-2        $3,620,075
                                                                                                                   IDIQ
                                                                   services
                                                  Operation of a container yard providing
                                                                                                                  FFP &
  21      W52P1J-09-D-0052           Service      repairs and refurbishment to containers            9/11/2009                 FAR 6.302-2        $4,000,000
                                                                                                                   IDIQ
                                                       at the Port of Umm Qasr, Iraq
  22      W52P1J-10-C-0002          Services        Dining facilities services in Kuwait         11/10/2009        FFP         FAR 6.302-1        $2,780,000
                                                                                                                   Fixed
                                    Product
                                                   Small caliber ammunition and related                          Price with
  23      W52P1J-09-D-0027            and                                                            3/20/2009                 FAR 6.302-1      $1,851,331,5742
                                                                  services                                        EPA &
                                    Services
                                                                                                                   CPFF
Acronyms and footnotes used throughout the Appendix C are defined on the final page of Appendix C.




                                                                                       20
	
             Appendix C. Noncompetitive Contracts Reviewed (cont’d)
                               Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                      Product
                                                                                                                    Contract
            Contract Number             or                        Description                          Award Date              Authority Cited   Contract Value
                                                                                                                     Type
                                      Service
                                                        Maintenance of wheel and track
     24     W52P1J-10-C-0007          Services       vehicles, night vision devices, radios,           11/24/2009      CPFF     FAR 6.302-1       $26,835,962
                                                       support operations for generators
                                                       LUU-2D/B Illumination Flare and
     25     W52P1J-10-C-0058          Product                                                           9/24/2010      FFP      FAR 6.302-1       $71,770,952
                                                      LUU-19B/B Infrared Flare program
     26     W52P1J-10-C-5036          Services             Angle Gear Replacement                       9/15/2010      FFP      FAR 6.302-1         $855,114

           Total Reviewed                                                                                                                        $2,839,717,649
1
 The contract value is the base award value excluding options or the maximum ceiling price at award.
2
 The contract value is the amount ordered on the contract since July 27, 2011.



    Cost             Cost Reimbursement
    CPFF             Cost-Plus-Fixed-Fee
    EPA              Economic Price Adjustment
    FAR 6.302-1      Only One Responsible Source and No Other Supplies or Services Will Satisfy Agency Requirements
    FAR 6.302-2      Unusual and Compelling Urgency
    FAR 6.302-3      Industrial mobilization; engineering, developmental, or research capability; or expert services
    FFP              Firm-Fixed-Price
    IDIQ             Indefinite-Delivery, Indefinite-Quantity
    T&M              Time-and-Materiels




                                                                                          21
	
Appendix D. Adequate Justification and Approvals
                 Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                                                        Justification & Approval    Justification & Approval
                                                     Authority Cited
     Contract Number     Content Requirements Met                         Approved by Proper       Approved Before Contract
                                                    Appropriately Met
                                                                                Personnel                     Award
1    W52P1J-10-D-0023               √                         √                      √                           √

2    W52P1J-10-C-5002               √                         √                    √                          √

3    W52P1J-10-C-0008               √                         √                    √                          √

4    W52P1J-09-C-0002               √                                              √                          √

5    W52P1J-10-C-0048               √                         √                    √                          √

6    W52P1J-09-C-0005               √                         √                    √                          √

7    W52P1J-09-C-0023               √                         √                    √                          √

8    W52P1J-10-C-5000               √                         √                    √                          √

9    W52P1J-10-C-0054               √                         √                    √                          √

10   W52P1J-10-C-0030                                         √                    √                          √

11   W52P1J-10-C-5035               √                         √                    √                          √

12   W52P1J-10-D-0048               √                         √                    √                          √

13   W52P1J-10-C-0016               √                         √                    √                          √




                                                       22
	
     Appendix D. Adequate Justification and Approvals (cont’d)
                  Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                                                       Justification & Approval    Justification & Approval
                                                    Authority Cited
     Contract Number    Content Requirements Met                         Approved by Proper       Approved Before Contract
                                                   Appropriately Met
                                                                               Personnel                     Award
14   W52P1J-10-C-0033                                     √                         √                           √

15   W52P1J-10-C-0018                                     √                       √                          √

16   W52P1J-09-C-0024                                     √                       √                          √

17   W52P1J-09-D-0003              √                      √                       √                          √

18   W52P1J-10-C-0022                                                             √                          √

19   W52P1J-10-C-0027              √                      √                       √                          √

20   W52P1J-10-D-0083              √                      √                       √

21   W52P1J-09-D-0052              √                      √                       √                          √

22   W52P1J-10-C-0002                                                             √                          √

23   W52P1J-09-D-0027              √                      √                       √                          √

24   W52P1J-10-C-0007              √                      √                       √                          √

25   W52P1J-10-C-0058              √                      √                       √                          √

26   W52P1J-10-C-5036              √                      √                       √                          √




                                                        23
	
           Appendix E. Market Research Conducted
                              Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                                                                                  Results of Market
                                      Estimated                                                                                               Market Research
                                                                                             Research or Justification       Supporting
          Contract Number            Value on the           Specific Steps Performed                                                            Considered
                                                                                                for Not Conducting          Documentation
                                        J&A                                                                                                      Adequate
                                                                                                  Market Research
                                                                                             Only one contractor could
                                                                                            provide the services without
                                                             Market research was not
   1      W52P1J-10-D-0023            $3,250,000                                               a break in service at the         J&A               Yes1
                                                                  conducted.
                                                                                             level of skill and expertise
                                                                                                       required.
                                                                                                 The mechanical and
                                                                                               electrical designs of the    Memorandum for
                                                             Market research was not
   2      W52P1J-10-C-5002             $425,000                                               area for the restroom are      the Record and        Yes1
                                                                  conducted.
                                                                                                 available only to the            J&A
                                                                                                      contractor.
                                                                                             This action was a onetime
                                                                                                 buy for Inert M1064
                                                             Market research was not
   3      W52P1J-10-C-0008             $114,472                                             cartridges. A market survey          J&A               Yes1
                                                                  conducted.
                                                                                                would serve no useful
                                                                                                       purpose.
                                                                                            No other contractor was in a
                                                             Market research was not
   4      W52P1J-09-C-0002           $17,136,000                                               position to provide the           J&A               Yes1
                                                                  conducted.
                                                                                              continuation of services.
Footnotes used throughout Appendix E are defined on the final page of Appendix E.




                                                                                       24
           Appendix E. Market Research Conducted (cont’d)
                              Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                                                                                  Results of Market
                                      Estimated                                                                                                Market Research
                                                                                               Research or Justification      Supporting
          Contract Number            Value on the           Specific Steps Performed                                                             Considered
                                                                                                 for Not Conducting          Documentation
                                        J&A                                                                                                       Adequate
                                                                                                  Market Research
                                                         Technical experts reviewed the
                                                        General Services Administration
                                                           Schedules e-library, General
                                                       Services Administration Advantage,
                                                                                              The contractor was the only
                                                        trade journals, and the Internet to                                  Market research
   5      W52P1J-10-C-0048           $78,400,000                                              source capable of providing                           Yes
                                                          identify potential sources. The                                    report and J&A
                                                                                                 the required support.
                                                          sources were then reviewed to
                                                         determine if they possessed the
                                                       basic understanding of the dynamic
                                                              nature of the product.
                                                                                              The contractor was the only
                                                                                               one with the qualifications
   6      W52P1J-09-C-0005            $6,100,000        Market research was not conducted.                                        J&A               Yes1
                                                                                               and experience required to
                                                                                                 meet the requirements.
                                                                                              The Republics of Uzbekistan
                                                                                              and Korea do not allow their
                                                                                                  citizens to enter into
                                                                                                Afghanistan. The current
   7      W52P1J-09-C-0023            $500,0002         Market research was not conducted.        contractor is a U.S.            J&A               Yes1
                                                                                               registered company and is
                                                                                                 able to legally provide
                                                                                                movement and enter into
                                                                                                      Afghanistan.
Footnotes used throughout Appendix E are defined on the final page of Appendix E.



                                                                                     25
Appendix E. Market Research Conducted (cont’d)
                              Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                   Estimated                                               Results of Market Research or                            Market Research
                                                                                                                                   Supporting
         Contract Number          Value on the        Specific Steps Performed           Justification for Not Conducting                             Considered
                                                                                                                                  Documentation
                                     J&A                                                          Market Research                                      Adequate
                                                                                        The terms of the Final Apportionment
                                                                                       and Settlement Agreement between the
                                                                                         Army and the contractor require the
                                                                                        contractor to operate and maintain the
                                                        Market research was not           plant’s Groundwater Remediation
   8     W52P1J-10-C-5000          $4,282,364                                                                                          J&A               Yes1
                                                             conducted.                 System for remediation of the soil and
                                                                                       groundwater contamination emanating
                                                                                        from Twin Cities Army Ammunition
                                                                                         Plant. The Army and the contractor
                                                                                       share the cost and do not make a profit.
                                                    Technical experts reviewed the
                                                             General Services
                                                     Administration Schedules e-
                                                        library, General Services      The contractor was the only source that
                                                      Administration Advantage,         possessed the knowledge, experience,
                                                                                                                                  Market research
   9     W52P1J-10-C-0054         $34,100,000       trade journals, and the Internet    and the required number of deployed,                             Yes
                                                                                                                                  report and J&A
                                                         to identify sources. The         cleared personnel to provide the
                                                       sources were reviewed to                        services.
                                                    determine if they possessed the
                                                       basic understanding of the
                                                    dynamic nature of the product.
Footnotes used throughout Appendix E are defined on the final page of Appendix E.




                                                                                       26
Appendix E. Market Research Conducted (cont’d)
                              Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                    Estimated                                               Results of Market Research                           Market Research
                                                                                                                                Supporting
          Contract Number          Value on the           Specific Steps Performed               or Justification for Not                          Considered
                                                                                                                               Documentation
                                      J&A                                                  Conducting Market Research                               Adequate
                                                                                            Only two labs could satisfy the
                                                      Listed possible labs based on past
                                                                                             requirement. One lab did not
                                                        experiences and labs that have
                                                                                               have the resources or agent
                                                      approval for chemical agents then
                                                                                              surety limit to commit to the    Market research
  10     W52P1J-10-C-0030            $500,000         contacted these organizations that                                                              Yes
                                                                                             task due to prior Government      report and J&A
                                                         were the only known sources
                                                                                                contracts. Therefore, the
                                                      capable to meet the Government’s
                                                                                               remaining lab was the only
                                                                requirements.
                                                                                                     available source.
                                                                                                  Because of the unique
                                                                                           knowledge and skill set required
                                                                                               for the work, there were no
                                                                                                                               Memorandum
                                                                                           other environmental companies
  11     W52P1J-10-C-5035            $294,000        Market research was not conducted.                                        for the Record         Yes1
                                                                                               available to accomplish the
                                                                                                                                  and J&A
                                                                                               work in an acceptable time
                                                                                                frame, without a negative
                                                                                                          impact.
                                                                                            A Transient Agreement signed
                                                                                            by the Uzbekistan Ministry of
                                                                                            Defense and the U.S. Secretary
  12     W52P1J-10-D-0048           $24,500,000      Market research was not conducted.                                             J&A               Yes1
                                                                                           of Defense directs the use of the
                                                                                                   contractor within the
                                                                                                   Uzbekistan territory.
Footnotes used throughout Appendix E are defined on the final page of Appendix E.




                                                                                     27
Appendix E. Market Research Conducted (cont’d)
                              Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                                                                                   Results of Market
                                      Estimated                                                                                                  Market Research
                                                                                                Research or Justification       Supporting
          Contract Number            Value on the           Specific Steps Performed                                                               Considered
                                                                                                  for Not Conducting           Documentation
                                        J&A                                                                                                         Adequate
                                                                                                   Market Research
                                                            Internet searches, reviews of
                                                             previous procurements, and         The contractor had patent
                                                            contacting the Marine Corps,        rights on the technology
                                                             which was seeking similar          equipment in the systems       Market research
  13      W52P1J-10-C-0016           $12,000,000                                                                                                      Yes
                                                          services. Also obtaining source          that were in need of        report and J&A
                                                          lists of similar items from other    maintenance and on-the-job
                                                         contracting activities or agencies,         training services.
                                                        trade associations or other sources.
                                                                                               The contractor was the only
                                                           Surveying knowledge from             available source who could
                                                                                                                               Market research
                                                         technical experts on lead times,      perform the contract without
  14      W52P1J-10-C-0033           $25,000,000                                                                               document and           Yes
                                                        unique software support, and costs       substantial duplication of
                                                                                                                                   J&A
                                                                    required.                     cost within the 6-month
                                                                                                  period of performance.
                                                                                                The immediate requirement
                                                                                                   was of an urgent and
                                                                                               compelling nature. The only
                                                                                               available source had already
                                                             Market research was not
  15      W52P1J-10-C-0018             $300,000                                                  established the positions          J&A               Yes1
                                                                  conducted.
                                                                                                  required to support the
                                                                                                    immediate and un-
                                                                                               anticipated reorganization of
                                                                                                  support of the mission.
Footnotes used throughout Appendix E are defined on the final page of Appendix E.



                                                                                       28
Appendix E. Market Research Conducted (cont’d)
                              Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                                                                               Results of Market
                                      Estimated                                                                                            Market Research
                                                                                            Research or Justification       Supporting
          Contract Number            Value on the           Specific Steps Performed                                                         Considered
                                                                                              for Not Conducting           Documentation
                                        J&A                                                                                                   Adequate
                                                                                               Market Research
                                                          Verified with the Government
                                                           technical community that the
  16      W52P1J-09-C-0024             $150,000                                             No other sources available.        J&A              Yes
                                                         contractor was the only producer
                                                                     available.
                                                                                             There were four responses.
                                                                                            Three could not provide the
                                                         A sources sought announcement
                                                                                                requirement. It was
                                                         was issued, and site visits were
  17      W52P1J-09-D-0003           $650,863,000                                           determined through market          J&A              Yes
                                                          coordinated with all interested
                                                                                            research that the contractor
                                                           parties in various locations.
                                                                                               was the only available
                                                                                                       source.
                                                                                            The contractor was the only
                                                             Market research was not
  18      W52P1J-10-C-0022            $4,200,0003                                           company capable to provide         J&A              Yes1
                                                                  conducted.
                                                                                                    the services.
Footnotes used throughout Appendix E are defined on the final page of Appendix E.




                                                                                       29
Appendix E. Market Research Conducted (cont’d)
                              Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                                                                                  Results of Market
                                      Estimated                                                                                             Market Research
                                                                                              Research or Justification      Supporting
          Contract Number            Value on the           Specific Steps Performed                                                          Considered
                                                                                                 for Not Conducting         Documentation
                                        J&A                                                                                                    Adequate
                                                                                                  Market Research
                                                                                            No other integration entities
                                                          Conducted internet research for       possessed the intricate
  19      W52P1J-10-C-0027            $27,300,000         Theater Network Management         knowledge, familiarity, and        J&A              Yes
                                                                  Architecture.                 intellect to support the
                                                                                                   warfighter efforts.
                                                                                              The incumbent contractor
                                                                                              was the only contractor in
                                                             Market research was not
  20      W52P1J-10-D-0083            $3,620,075                                             the United Kingdom, which          J&A              Yes1
                                                                  conducted.
                                                                                            could meet the Government's
                                                                                                  urgent requirement.
                                                                                              The current contractor was
                                                          Extensive market research was
                                                                                              the sole vendor capable of
  21      W52P1J-09-D-0052            $4,000,000         conducted, and a sources sought                                        J&A              Yes
                                                                                               fulfilling the immediate
                                                              synopsis was issued.
                                                                                                     requirements.
                                                                                             The contractor was the only
                                                             Market research was not
  22      W52P1J-10-C-0002            $16,776,000                                                company capable of             J&A              Yes1
                                                                  conducted.
                                                                                                providing the services.
Footnotes used throughout Appendix E are defined on the final page of Appendix E.




                                                                                       30
Appendix E. Market Research Conducted (cont’d)
                    Noncompetitive Contracts Awarded by ACC - Rock Island from FY 2009-FY 2010
                                      Estimated                                                 Results of Market Research                                Market Research
                                                                                                                                      Supporting
          Contract Number            Value on the           Specific Steps Performed              or Justification for Not                                  Considered
                                                                                                                                     Documentation
                                        J&A                                                    Conducting Market Research                                    Adequate
                                                            Conducted regular site and
                                                         customer visits that provide in-
                                                                                                 There were no manufacturers
                                                         depth knowledge of the overall
                                                                                                   that would be capable of
                                                            industry. Specifically, they                                             Market research
                                                                                                providing a seamless transition
    23    W52P1J-09-D-0027          $2,000,000,000      evaluated information relative to                                            document and                 Yes
                                                                                                from the incumbent contractor
                                                        experience in high-volume, small                                                 J&A
                                                                                                 while meeting the continued
                                                        caliber production ability to meet
                                                                                                  high-delivery requirements.
                                                             U.S. Military specification
                                                                   requirements.
                                                         A sources sought announcement          The current contractor was the
                                                                                                                                     Market research
                                                         was issued, and site visits were         only one that possessed the
    24    W52P1J-10-C-0007           $30,200,000                                                                                     document and                 Yes
                                                          coordinated with all interested       required permissions needed to
                                                                                                                                         J&A
                                                            parties in various locations.          perform the requirements.
                                                              Several sources sought              The contractor was the only
                                                           announcements were issued.              available source currently        Market research
    25    W52P1J-10-C-0058           $265,700,000            Reviewed the responses to          qualified to produce flares that     document and                 Yes
                                                           determine if they could meet           met the Air Force technical            J&A
                                                               contract requirements.                    data package.
                                                             Contacted knowledgeable
                                                                                                Civil Construction Inc. was the      Market research
                                                          individuals in the Government
    26    W52P1J-10-C-5036            $1,700,000                                                 only reliable contractor that       document and                 Yes
                                                          and industry regarding market
                                                                                                 was familiar with the bridge.           J&A
                                                        capabilities to meet requirements.
1
 Although market research was not conduced, the rationale provided for not conducting research was considered appropriate.

2
  ACC-RI contracting personnel issued a new J&A with an estimated value of $24.5 million in accordance with Army Federal Acquisition Regulation Supplement 5106.304(a).
	
3
  ACC-RI contracting personnel issued a new J&A with an estimated value of $16.2 million in accordance with Army Federal Acquisition Regulation Supplement 5106.304(a).
	



                                                                                       31
